HHS/OIG, Audit -"Review of Medicaid Upper-Payment-Limit Requirements for Kansas
Nursing Facility Reimbursement,"(A-07-03-02672)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Upper-Payment-Limit Requirements for Kansas Nursing Facility Reimbursement," (A-07-03-02672)
February 14, 2005
Complete
Text of Report is available in PDF format (662 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Kansas calculated the upper payment limit (UPL)
for non-State government nursing homes in accordance with Federal regulations and the approved State plan amendment.  In
general, Federal funds are not available for Medicaid payments that exceed the UPL.  However, during a limited period
of time, called a transition period, Kansas was eligible to receive Medicaid payments that exceeded the UPL by a determined
amount.  We found that Kansas followed Federal regulations and its State plan amendment when calculating the UPL for
non-State government nursing homes.  Contrary to Federal regulations, however, Kansas increased the Medicaid payment
amount that exceeded the UPL during its transition period.  As a result, Kansas overclaimed expenses by $58,303,091
($35,004,284 Federal share).  We recommended that Kansas reduce claimed expenses on its quarterly expenditure reports
by $58,303,091 ($35,004,284 Federal share) for the period April 1, 2001, through September 30, 2002.  Kansas concurred
with our recommendation.